Service List

Eychaner v. City of Chicago, No. 20-1214
Counsel for Petitioner Fred J. Eychaner:
Kosta Stanko Stojilkovic
Wilkinson Stekloff LLP
2001 M Street NW, 10th Floor
Washington, DC 20036
Telephone: (202) 847-4045
Email: kstojilkovic@wilkinsonstekloff.com
Counsel for Respondent City of Chicago:
Benna Ruth Solomon
Corporation Counsel of the City of Chicago
2 N. LaSalle St., Suite 580
Chicago, IL 60602
Telephone: (312) 744-7764
Email: benna.solomon@cityofchicago.org

